HHS/OIG, Audit -"Audit of Kentucky's Title IV-E Training Costs,"(A-04-03-00022)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit
of Kentucky's Title IV-E Training Costs," (A-04-03-00022)
April 6, 2006
Complete
Text of Report is available in PDF format (1.08 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of Title IV-E training costs the State agency
claimed for the period April 1, 2001, through March 31, 2003.  The State agency did
not always follow Federal regulations regarding allowability of Eastern Kentucky University
(EKU) and other Title IV-E training costs.  These deficiencies occurred because the
State agency:  (1) was not always aware of Title IV-E laws, regulations, and program
policies and (2) did not have adequate procedures to ensure that it claimed only eligible
training costs.
We recommended the State agency:  (1) reduce reported Federal reimbursement by $1,063,743
(Federal share) for training courses provided by EKU, (2) work with the Administration for
Children and Families (ACF) to determine the allowable portion of  $9.7 million (Federal
share) in both EKU training costs ($2.6 million) and State agency employee salaries and fringe
benefits ($7.1 million) allocated to the Title IV-E program and (3) develop additional procedures.  State
agency officials agreed to return $484,910 of the $1,063,743 (Federal share), work with ACF
to determine the allowable portion of costs we set aside, and implement and maintain additional
procedures.